                                                          Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Inspector General Oversight                          Date:    October 6, 2005
           Efforts for Hurricane Relief and Recovery Activities


  From:    Kenneth M. Mead                                                Reply to    J-1
           Inspector General                                              Attn. of:



    To:    All Secretarial Officers
           All Operating Administrators

           Earlier today, Secretary Mineta testified before the U.S. House of Representatives about
           the Department of Transportation’s (DOT) response to Hurricane Katrina. Following the
           Department’s lead and soon after this hurricane struck, Office of Inspector General (OIG)
           criminal investigators were on the ground in Mississippi and New Orleans protecting
           DOT assets and people, assisting DOT with damage assessments, and conducting liaison
           with other law enforcement agencies. Likewise, our auditors have been working to
           assess risks associated with the expenditure of funds related to this hurricane.

           Our focus is now moving from immediate relief to longer-term recovery and
           reconstruction. During the past several weeks, the OIG Assistant Inspectors General for
           Audit and Investigations, in consultation with the Office of the Secretary, have developed
           a construct for the oversight of DOT funds and activities involved with this disaster. The
           purpose of this memorandum is to inform you of OIG plans to conduct a series of audits
           and investigations of DOT’s relief and recovery activities. This work is directed towards
           preventing fraud, waste, and abuse and detecting and prosecuting fraud.

           As you know, the recovery will be expensive—the latest estimates indicate the
           Department will obligate at least $367 million on behalf of the Federal Emergency
           Management Agency for relief activities. A significant portion of the relief monies are
           devoted to a contract with Landstar Express America, Incorporated, for the movement of
           materials and associated support services. Additionally, the cost of transportation
           infrastructure reconstruction is expected to cost billions more. We know from experience
           that the risks of fraud, waste, and abuse increase substantially when large sums of money
           are involved.
The scope of this disaster presents a special challenge to the OIG to ensure that
taxpayers’ interests are fully protected. Providing these levels of emergency relief and
recovery will also require more intense oversight on the part of each Operating
Administration and the State Departments of Transportation, and we know the DOT is
already taking steps to ensure that this occurs. One of the major objectives of our audit
effort will be to confirm the effectiveness of this increased oversight and we will be
apprising the Secretary and Congress of our findings along these lines.

Our audit and investigative plans, highlighted below, have been developed in
coordination with the Office of the Secretary, and the President’s Council on Integrity
and Efficiency, which represents the Federal Inspector General community. We will also
coordinate with Offices of United States Attorney and the Department of Justice, and will
be discussing our efforts with appropriate congressional committees; the Government
Accountability Office; and State Auditors and Inspectors General in Alabama, Louisiana,
Mississippi, and Texas. We will require on-site office space at the relevant State
Departments of Transportation and regional DOT Operating Administrations and will
make arrangements through these offices, as needed.

Our work will focus on the DOT Office of Intelligence, Security and Emergency
Response (S-60); the Federal Highway Administration, Federal Transit Administration,
Federal Aviation Administration, Maritime Administration, and Federal Railroad
Administration; and State Departments of Transportation activities. Specifically, we will:

   ¾ Verify that expenditures of Federal funds on transportation services and programs
     are being appropriately tracked by the Operating Administrations as required by
     the Assistant Secretary for Budget and Programs and Chief Financial Officer;

   ¾ Proactively ensure that Operating Administrations and State Transportation
     Departments exercise adequate oversight of Department expenditures and put
     systems in place to make certain that funds are appropriately spent;

   ¾ Audit selected projects, grants, and contracts;

   ¾ Conduct fraud awareness and prevention activities to alert Federal, state, and local
     government agencies; and

   ¾ Investigate allegations of fraud involving transportation funded projects, to
     include presenting cases to the Department of Justice for prosecution,
     participating in resulting prosecutions, and ensuring that the Operating
     Administrations and States take appropriate suspension and debarment actions.

If you have any questions or need additional information, please contact me at
(202) 366-1959 or Jim H. Crumpacker, who has been designated as our Deputy Assistant
Inspector General for Hurricane Relief and Recovery Oversight, at (202) 366-1420.




                                                                                        2
